No.:

-5215

IN THE SUPREME COURT OF THE UNITED STATES^^^

CAMERON DEAN BATES,
Petitioner, Pro Se,
v.
THE UNITED STATES OF AMERICA 9 9
Respondent.

ON WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT.
(Southern Dist. of Florida Case No. 2:17-CV-14365-KMM.)

PETITION FOR CERTIORARI.

Camer&n Dean Bates
Petitioner, Pro Se
C/0 Federal Correctional Complex - LOW
Reg. No. 00407-104
PO Box 1031
Coleman, Florida 33521

RECEIVED
JUL ? 3 TIM

Page

/

QUESTIONS PRESENDED FOR REVIEW.
(**NOTE’**: This appeal to the Supreme Court centers on the denial of a
Certificate of Appealability ( COA ), and not the underlying denial of relief
for the Petitioner's §2255 by the Trial Court, therefore the question(s) and
issues presented are limited to just the question of if a COA should have
been issued or denied, and not the underlying merits of the §2255, which
are not, specifically relevant.)

1.

Given that this Court held in Slack v. McDaniel, 529 US 473 (2000) that
a Certificate of Appealability ("COA") shall not be granted if "no reasonable
jurist" could find the court's decisions "debatable or wrong" (id at 484),
was it an improper abuse of discretion for the District Court and the Court
of Appeals to deny the Petitioner a COA without explanation or opinion (but
for the boilerplate assertion that no reasonable jurist could find the Court's
decision wrong or debatable, a'la Slack), despite the fact that the record
of the case and the pleadings to the Court of Appeals contained two (2)
seperate affidavits from a "reasonable jurist—“who specifically testified
under oath that the lower court's rulings in the case were "wrong or debatable"?

2.

Did the Trial and Appellate Courts err by supplanting thier own, subjec­
tive opinion of what a "reasonable jurist" would find debatable or wrong
under Slack, instead of applying the Slack standard objectively and given
the fact that there were two (2) affidavits from a reasonable jurist who
1
— Specifically, an attorney vho is currently practicing in federal and state law with over
40 years of trial experience. (See both affidavits included in the attached appendix.)

Page ck

found the Trial Court's decisions "erong or debatable", or, in other words,
is the "reasonable jurist" standard in Slack a subjective one wherein the
Court solely decides what a reasonable jurist would think (or even who qual­
ifies as a reasonable jurist), or was the Supreme Court's holding in Slack
that a reasonable jurist is (or can be) an objective standardthat can be met
by a petitioner presenting sworn testimony or a verified affidavit from a
reasonable jurist stating that the decision(s) of the lower court(s) were
wrong or debatable?
3.

Given the fact that many of the assertions and claims by Mr. Bates in
his §2255 were based on facts either not reflected in the record, or so
minimally so that the record can cast no real light, did the Court err by
failing to grant Mr. Bates evidentary hearings (which he moved for repeatedly
without opposition from the Government) to expand the record as required
by previous Supreme Court and Eleventh Circuit precedent, and then make a
ruling on these matters despite there being nothing on the record to reflect
these issues? ?0r, more specifically, did the Court's denial of evidentary
hearings leave the record so befift of evidence on matters occurring outside
the record (ie: incidents that happened outside the courtroom, post-trial,
or newly discovered evidence or facts) allow the Court to deny Mr. Bates
a C.O.A. without sufficient evidence or facts on the record to make a sound
decision?

Page 3

LIST OF PARTIES IN COURT.
The Caption of this case, set out above, contains the names of all
parties involved in this matter.

Page

V
CORPORATE DISCLOSURE STATEMENT.
There are no corporate entities or other individual, business, or

governmental interests or parties involved in this case, to the Petitioner's
knowledge, beyond those listed in the caption of this case.

Page

r
TABLE OF CONTENTS

Questions Presented for Review
List of Parties

Page__/

3

Table of Contents

H
r

Table of Authorities

<o

Table of Citations of the Official and Unofficial
• i " Reports, Opinions, and Orders in the Case

2

Corporate Disclosures

Statement of the Basis of Jurisdiction

1

Constitutional Provisions

I0

Statement of the Case

n-

Reasons for Granting the Writ
Conclusion

23
11

Certificate of Service

z°\

Appendix

3D

EEge

t
TABLE OF AUTHORITIES CITED.
Federal Cases.
CASE

PAGES

Aron v. US, 291 F.3d 708 (11th Cir. 2002)

24

Barefoot v. Estelle, 463 US 880 (1983)
Barksdale v. Attorney General, et. al.
2020 US App LEXIS 20249 (11th Cir. 2020)
Buck v. Davis 137 S.Ct 759 (2017)
Engle v. Linahan, 279 F.3d 936 (11th Cir. 2019)
Estelle v. McGuire, 502 US 62 (1991)

11, 17, 21, 24
18
21, 26
19, 21
18

In Re: Bates, 2019 US App LEXIS 36842 (11th Cir. 2019)
Lynn v. U.S., 365 F.3d 1225 (11th Cir. 2004)
Miller-El v. Cockrell, 573 US 322 (2003)
Oregon v. Kennedy, 465 US 667 (1982)
Quiones v. U.S., 240 Fed. Appx 876 (1st Cir.)
Schiro v. Landrigen, 550 US 465 (2007)
Scymanski v. Perry, 2014 US App LEXIS 25213
(6th Cir, 2014)
S.E.C. v. Torchia, No. 17-13651 (11th Cir. 2019)
Sills v. U.S., 111 Fed.Appx 117 (8th Cir. 2019)
Slack v. McDaniel, 529 US 473 (2000)
Sunnier v. Quaterman, 481 F.3d 288 (5th Cir, 2002)
Tennard v. Drutke, 542 US 274 (2004)
U.S. v. Bates, ("Bates-I"), 890 Fed. Appx 882 ' 1 .
(11th Cir. 2014)
U.S. v. Bates, ("Bates-II") 665 Fed. Appx 819
(11th Cir. 2016)
Williams v. Chatman, 510 F.3d 1290 (11th Cir. 2007)

14, 15
24
Passim
14, 19
18
24
18
24
18
Passim
18
17, 21

C
11, 13
14
24

State Cases.
State of Florida v. Cameron Dean Bates,
19th Judicial Circuit of Florida (St. Lucie County)
2013 **

12

Due to the Petitioner's inability to access Florida's law library database in Federal
prison, the case timber to this state case in unavailable to the Petitioner.

Page 1

Federal Statutes
28 U.S.C. 2255 (Multiple sub-sections)

Passim

18 U.S.C. 2252 (Multiple sub-sections)

13

28 U.S.C. 455(a)

15, 19

Ihge S’

CITATIONS OF OPINIONS AND ORDERS IN THIS CASE.

Thi§ case centers upon the denial of a Certificate of Appealability,
and not on the actual denial of §2255 relief, per se.

However, the Report

and Reccomendation of the magistrate judge can be found at BATES v. U.S.,
2020 U.S. Dist. LEXIS 1135 (So. Dist. of Fla., Jan 2, 2020), and the Trial
Court's order (and its included reply to the Petitioner's objection to said
report) can be found at BATES v. U.S., 2020 U.S. Dist. LEXIS 23970 (So. Dist.
of Fla., Feb. 10, 2020).

(The opinion of the Trial Court stood silent on the

matter of a Certificate of Appealability.)
The Petitioner's Motion for a COA to the Trial Court, and thier order
denying one (not an "opinion'/, but simply an order two sentences long) were
not reported in any reporter, but are included as exhibits in the attached
appendix.
The Petitioner's Application for a Certificate of Appealability and
thier denial (again, by way of an "order", not an opinion), as well as
the Petitioner's Motion for Reconsideration which included an affidavit
in support of reconsideration by a "reasonable jurist" finding the Trial
Court s rulings "wrong or debatable", were not reported in any reporter,
but are included in the attached appendix as exhibits, including the
affidavit.

The Order by the Appeals Court denying reconsideration can

be found at BATES v. U.S.. 2021 U.S. App LEXIS 7483 (11th Cir., Mar. 15,
2021) and is also included as an exhibit in the attached appendix.

Page

STATEMENT OF JURISDICTION.
The Petitioner was convicted in the District Court of the Southern
District of Florida of six (6) counts related to child pornography.
A Section 2255 motion was timely filed in that District Court and denied.
A COA was applied for in the District Court ih order to appeal the denial
of relief by the District Court, and that application was denied.
A verified application for a COA was filed with:the United States Circuit
Court of Appeals for the Eleventh Circuit.
opinion for not meeting the Slack standard.

It was denied by order without an
A motion to reconsider which

included a second affidavit from a "reasonable jurist" in support of the
Petitioner, was denied.

(The Court denied reconsideration, as opposed to

having reconsidered the matter and reaffirmed it's decision.)
This matter is now ripe for consideration by the United States Supreme
Court.

Page /.Q

CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED.
1.

The statute upon which the Petitioner sought relief (post-conviction)
was 28 USC §2255, which provided:
A.

Federal Custody: Remedies on Motion Attaching Sentence.
A prisoner in custody under a sentence of a court established
by Act of Congress claiming the right to be released upon the ground
that the sentence imposed was in violation of the Constitution ot
laws of the United States, or that the Court was without jurisdiction
to impose such sentence, or that the sentence was in excess of the
maximum authorized by law, or is othewise subject to collateral
attack, may move the court which imposed the sentence to vacate, set
aside or correct the sentence.
Unless the motion and the files and records of the case conclu- v>.
sively show that the prisoner is entitled to no relief, the court shall
cause notice thereof to be served upon the United states attorney,
grant a prompt hearing thereon, determine the issues and make findings
of fact and conclusions of law with respect thereto. If:the court
finds that the judgment was rendered without jurisdiction, or that the
sentence Imposed was not authorized by law or otherwise open to col­
lateral attack, or that there has been such a denial or infringement
of the constitutional rights of the prisoner as to render the
judgment vunerable to collateral attack, the court shall set aside
and vacate the judgment and shall discharge the prisoner or resentence
him or grant a new trial or correct the sentence as may appear approp­
riate.
A court may entertain and determine such motion without requiring
the production of the prisoner at the hearing.
An appeal may be taken to the court of appeals from the order--.:
entered on the motion from a final judgment on an application for a
writ of habeas corpus.
An application for a writ of habeas corpus in behalf of a prisoner

Page

//
who is authorized to apply for relief by motion pursuant to this
section , shall not be entertained if it appears that the applicant
has failed to apply for relief, by motion, to the court which sentenced
him, or that such court has denied him relief, unless it also appears
that the remedy by motion is inadquate or ineffective to test the
the legality of his detention.

B.

28 USC §2255(c)(2) states that a federal court (district, i
appellate; or supreme) should grant a COA to a §2255 movant when­
ever he makes a "substantial showing" of the denial of a constitu­
tional right, such as in the instant case, the constitutional rights
to Due Process under the 5th and 6th Amendments, the right to be free
from double jeopardy under the 5th Amendment, and to have the assist­
ance of effective counsel under the 6th Amendment, to name a few. (All
set forth in the Petitioner's Section 2255 complaint.)
The Supreme Court held that a movant makes a "substantial showing"
if a reasonable jurist would find the District Court's ruling(s)
"debatable or wrong". (Tennard v. Dretke, 542 US 274, 282 (2004);
Slack, id. at 484.) A petitioner may also demonstrate a substantial
showing simply be demonstrating that a "jurist of reason" would find
the issues presented "deserve encouragement to proceed further." (See
Barefoot v. Estelle, 463 US 880, 893 (1983); Miller-El v. Cockrell,
537 US 322, 335-36 (2003); and others.)

Page ll
STATEMENT OF THE CASE.
The facts necessary toiplace in their setting the questions raised can ■
be briefly
I.

stated:

COURSE OF THE PROCEEDINGS IN THE SECTION 2255 CASE NOW BEFORE THIS
COURT.
In early 2012, the Petitioner was arrested by the St. Lucie County
Sheriff's Office subsequent to a search warrant for Child Pornography related
charges.

The case was originally prosecuted by the State of Florida (State

case number unavailable, but was under the style of State of Florida v.
Cameron Dean Bates in the 19th Judicial Circuit of Florida.j That case
progressed for several weeks until the Petitioner submitted a Notice of
Alibi showing alibis for 2/3 of the asserted instances of illegal activity.
Upon verification of the ailbis, the State of Florida dismissed all charges
against the Petitioner.
A few weeks after the State's dismissal, the Sheriff's Office presented
the case to the United States Attorney, who filed a complaint that led to a
three-count indictment.

This was superceeded to an eighteen-count indictment

just days before trial (over denied defense motions for continuations agreed
to and supported by the Government).

Just ELEVEN DAYS after the issuance

of the 18-count superceeding indictment, on March 9th, 2013, the Petitioner was found guilty on all counts and sentenced to the maximum — 240 months —
despite no prior criminal conduct and the de minimus level of the offense.
Upon appeal, the Eleventh Circuit vacated and remanded the Petitioner's
case for a new trial, issuing a scathing opinion on the Court's and the
Prosecution's conduct and actions towards ithe Petitioner.

Even the dissenting

justice ultimately lamenting that given the egregious actions by the Court

Page 13

and Prosecution, he could only dissent "without enthusiasm".

(See US v.

Bates, 590 Fed. Appx 882 (11th Cir., 2014.) The dissent's comments are
at 893-94.)
The Petitioner went to trial a second time in a much less advantageous
position than he had in his first trial,

(e.g.: no funds, no private lawyer,

not allowed out on bond to assist in his own defense, held in disciplinary
segregation during trial, etc.)

Moreover, the Government filed yet another

superceeding indictment reducing the eighteen-count indictment to a sixcount one, eliminating the twelve counts that centered around activity that
the Petitioner provided irrefutable alibis for.
Again, the jury returned a guilty verdict, despite the Government co.• ,

;

, , , c;

mitting many of the same improper actions which the Appellate Court cited
were improper and led to this second trial.

The Petitioner was found

guilty on four counts of receiving child pornography (18 USC §2252 (a)(2)
& (b)(1)), one count of distribution of child pornography (18 USC §2252
(a)(2) & (b)(1)), and one count of possession of child pornography (18 USC
§2252 (a)(4)(b) & (b)(2)).!
Mr. Bates' Public Defender filed a bare-bones appeal that merely objected
to the Prosecution's repeated improper and false caharacterizations of the
Petitioner and the hearsay nature of ICAC evidence.

Mr. Bates advised the

Public Defender repeatedly to include the other reversable errors from the
trial, but failed to do so over the Petitioner’s objections.

In the end,

1

— It's noteworthy that only the single possession of child pornography
charge had any actual evidence — and circumstantial at best — against the
Petitioner. The remaining five charges related to receiving and distribution
were applied to the Defendant despite the Government's admitting there was
absolutely no evidence that Bates received dr distributed any illicit material.
In fact, at no time could they place Bates at the computer for any illegal
activity. But receipt/possession are automatically found if the defendant
used P-2-P software giving him the mere means to receive/distribute imagery,
regardless if the defendant actually did receive or distribute anything.

/V

Page

the Eleventh Circuit affirmed the conviction despite finding the claims
made were true, just as Mr. Bates told his Public Defender would happen.
(See US v. Bates, 665 Fed. Appx 810 (11th Cir., 2016.)
Mr. Bates then filed this instant motion for relief pursuant to 28 USC
§2255.

Mr. Bates initially filed a 288-page (hand written) petition covering

five grounds and numerous sub-grounds, including, inter alia, specifically
detailed, factual claims of ineffective assistance of counsel, prosecutorial
misconduct, newly discovered evidence, (admitted) conflict-of-interest and/or
prejudice by the presiding magistrate leading to her recusal under §455(a),
witness tampering by law enforcement officials, and double jeopardy through
exhaustion of resources by prosecutorially-caused re-trials pursuant to
Oregon v. Kennedy, 456 US 667 (1982).
The District Court ordered Mr. Bates to ammend his complaint to just
twenty (20) pages including the 14-page court form.

Over objection, the

court did increase the allowed pages to 35, forcing the petition to be culled
by more than 60% of it's allegations and claims, and editing the remaining
one£.
During the pendancy of the Section 2255, several instances of new
evidence were discovered, including witness tampering not know about at
the time of trial.

Also, witnesses died during the three-year wait for

the magistrate to rule,

Numerous motions were filed to expedite the case

and to hold evidentary hearings.

They were- all unopposed by the Government,

and yet the Magistrate denied them all stating she'll rule on the record alone
despite the record not reflecting most, if not all, of the claims.
After three years if inaction by the District Court, the Petitioner
filed a Motion for an Order of Mandamus with, the Eleventh Circuit Court
of Appeals.

(In Re: Bates, Case No. 19-14218-H, (See In Re: BATES,.

Page f y

2019 U.S. App. LEXIS 36842 (11th Cir., Dec 12, 2019) for the 60-day order to
the Trial Court to rule on the §2255.) (Dismissed upon ruling.) They found
the claim non-frivilous and ordered the District Court to rule within 60
days.

The Magistrate, facing imminent appellate review, abruptly and without

explanation recused herself after presiding over the case for over two years
and repatedly ruling against the Petitioner, citing §455(a), governing recusal
of judges for conflict-of-interest and/or prejudice!
i

The new magistrate, havirg just taken over the case days earlier supposedly

reviewed the thousands of pages of pleadings and transcriptstovering two
trials and appeals, the Section 2255 claims, and various motions spanning
over 10 years in just two weeks, presenting a report and recommendation that
was replete with errors and omissions of fact and law.

Over obj ec tion, the

District Court adopted the R&R's recommendation to deny relief, despite the
District Judge, in his order, having to write a half-page of single-spaced
corrections, amendments, and changes to the R&R.

However, the District

Court stood silent on the issue of a COA.
An application for a COA was timely filed with the District Court.
(See Exhibit "B" of the appendix.)

This application was denied without

an opinion/ except a single sentence that it did not meet the Slack
standard.
The Petitioner filed an application for a COA with the Eleventh Circuit
Court of Appeals, and again was denied in a single sentence order stating
it failed to meet the Slack ’’reasonable jurist" standard, despite the affidavit
of Attorney Scremin being part of the record and submitted with the application.
A motion for reconsideration was filed witht the Eleventh Circuit which in­
cluded a second affidavit from Mr. Scremin — a "reasonable jurist" -

in

Page l k

support of reconsideration.

The Motion to Reconsider was denied because,

inexplicably, the Appeals Court saidn there was*no additional information"
to lead them to believe that a "reasonable jurist" would find the District
Court's actions "wrong or deabtable" under Slack, despite the new affidavit f
from a "reasonable jurist" being part of the Motion! ~
This lead the Petitioner to this instant filing for certiorari with
the Supreme Court.

^ Upon receipt of the 11th Circuit's one-paragraph, boilerplate denial
to reconsider the matter, Mr. Bates did file a motion for the Court to
provide an opinion or otherwise explain how they could reconcile thier claim
that: 1) No reasonable jurist would find the Trial Court's findings wrong or '
debatable in light of the affidavits presented, and; 2) How the Justices
could state that there was no "additional information presented" to lead
them to reconsider thier position when the second, sworn affidavit was presented
with the reconsideration showing a reasonable jurist found the Trial Court's
rulings wrong. This motion was not filed with the Court of Appeals because
the Clerk of the Court of Appeals stated it constituted a second or subsequent
appeal on the same issue, and refused to file it or present it to the Court
for consideration.

Page / 7

II. RELEVANT UNDERLYING FACTS CONCERNING THE ISSUANCE OF A CERTIFICATE OF APPEALABILITY.
In order to appeal an adverse ruling on a Section 2255, the movant must
first obtain a Certificate of Appealability.
a federal judge or justice.

("COA".)

This COA must come from

(28 USC §2255(c)(2); Fed. R. App. P. 22.)

The decision to issue a COA centers on the question of if a movant
claims a denial of a substantial constitutional right.

(Such:asiIneffective

assistance of Counsel under the Sixth Amendment, Double Jeopardy under the
Fifth Amendment, etc.)(See 28 USC §2253 (c)(2); Miller-El v. Cockrell, 537
US 322 (2003);
showing"

Slack v. McDaniel, 529 US 473 (2000).)

A "substantial

is made by the movant showing that a "reasonable jurist" would

find the court's ruling(s) "wrong or debatable", or conversly, that no
reasonable jurist would find the Court's actions wrong or debatable.

(See

Tennard v. Dretke, 542 US 274, 282 (2004); Slack, id at 484.)
A movant can also make the "substantial showing" by demonstrating that
a "reasonable jurist" would find that the "issues presented deserve encourage­
ment to proceed further."

(Miller-El, id. at 335-36;

Barefoot v. Estelle,

463 US 880, n.4 (1983).)
Importantly, the threshold is NOT that there be a concensus of reason­
able jurists, or multiple jurists, or even if the presiding judge/justice
agrees or disagrees.

The construct of the verbage in the "reasonable jurist"

standard in EVERY circuit has been in the singular. In other words, just ONE
reasonable jurist is needed to meet the Slack standard.

In all cases, the

various court opinions in the many districts either say "a reasonable jurist"

Page /¥

(in the singular), or "no reasonable jurist" (an absolute, that not a single
jurist anywhere would differ in opinion).

(See, inter alia, Barksdale v.

Attorney General, et. al., 2020 LEXIS 20249, p.9 (11th Cir. 2020); Estelle
v. McGuire, 502 US 62, 67 (1991); Quiones v. U.S., 240 Fed.Appx 876 (1st Cir);
Sunnier v. Quarterman, 481 F.3d 288, 289 (5th Cir., 2002)("No reasonable
jurist would find debatable or wrong" the court's findings. (Emphasis added.).);
Scymanski v. Perry, 2014 US APP LEXIS, 05213, p.5 (6th Cir., 2014)(Citing
Slack, id.);

Sills v. U.S., 777 Fed. Appx. 117, 178 (8th Cir., 2019)(Citing

Slack, id. ). Ihis includes Slack, Barefoot, Buck, etc. (id) usiig, the sii^ular "jurist".
In the above, and countless other cases, the rule is clear:

If just one

reasonable jurist finds the trial court's (or appellate court’s) rulings
wrong or debatable, or that the decision warrants further review, then the
Slack standard is met, and a COA must be given.
In the instant case, the "reasonable jurist" who supported the Petitioner's
claims and found the District Court's actions "wrong or debatable" and in
further need of review, is ANTHONY J. SCREMIN, Esq., Mr. Scremin is a prac­
ticing attorney in both state and federal trial law with more than 40 years
of experience.

Moreover, his is well read in the instant case and he wrote

tyw affidavits in support of a COA under the Slack standard.
Par^

The first being

the Section 2255 record (DE-10, Exhibit "A" of the appendix attached

hereto), and in support of reconsideration by the Court of Appeals (Exhibit
"G" of the appendix attached hereto).
Furthermore, the Courts must only give a cursory examination of the L c'
factual or legal basis adduced in support of the COA. (Miller-El, Id. at 336.)
In other words, a movant need not demonstrate he'd be entitled to relief, or
that the appeal would succeed, but only that the issues are worthy of debate.

Page ^ *7

A COA should be issued*if the questions presented are reasonably debatable.*
(Slack, id at 484;

Engle v. Linahan, 279 F.3d 936, 936 (11th Cir., 2001).

In this case, the reasonably debatable questions are plentiful and
well detailed throughout the pleadings.

For example:

— Why were no evidentary hearings held on the numerous claims
raised by the Petitioner that were not part of the record, or conversly,
how could the District Court reach a dispositive conclusion for or against
the Petitioner without an evidentary hearing when no facts about the
issues raised were part of the record? These "off-the-record" claimsinclude:
1.

The ex-parte, undisclosed meeting about the case held by members
of the Sheriff's Office and the former wife of the Petitioner/De­
fendant, late at night in a closed park, which was not disclosed
by anyone until years after the second trial.

2.

The failure for the Prosecution to disclose the "secret" grand
jury hearing of a witness who provided at that hearing excul­
patory testimony, but was not disclosed at the first trial or
until the first day of the second trial.

3.

The discovery, post-trial, th«£the Government's key witness had
terminal cancer and may have been under the influence of cancer
medications and/or the disease itself at trial and before. (A
affidavit as to this issue was partof the 2255 record, DE-11,
affidavit of Dr. Daniel Bays, DO.)

4.

The failure of the Court to consider Mr. Bates' double-jeopardy
claim under the standard of Oregon v. Kennedy, id. precedent of
prosecutorial-based retrial causing exhaustion of resources.

5.

The prejudice from decisions made by the Magistrate (Reid) in
the instant case before she recused herself for prejudice/conflictof-interest under 28 USC 455(a).
— Why did the Government, as is commonplace, fail to obtain a statement

from Mr. Bates' public defender stating his work was not ineffective?
(Perhaps because the Defender refused to do so knowing he failed Bates?)

Page 310

—

If, as the law and rule of the 11th Circuit require, a movant

must detail EVERY claim he has in a §2255 complaint or be barred from ever
readdressing them, then why does the 11th Circuit impose a strict 20-page
limit on §2255 complaints — including the 14-page forms required by the
circuit —absent a leave of the Court?

Or, in other words, was it proper

for the Court to deny Mr. Bates the right to present every claim he had
in his case absent clear demonstration that the claims were groundless,
which was not the case here?
— Did the Trial Court err by not reviewing all the unopposed motions
denied by Magistrate Reid given the.fact she later recused herself under
§455(a) governing the recusal of judges who are prejudiced or conflicted?
Mr. Scremin — a reasonable jurist — made it clear in his affidavits that
these and many other issues in the §2255 complaint (both the original 288-page
complaint and the amended one) were more than worthy of further review, but
that justice demanded it.

He found that the decisions of the District Court

were wrong, and fully detailed his reasoning under oath in not one, but TWO
a
sworn affidavits in this case. Both of which were apparently ignored by both
the District and Appellate Courts without explanation.
Accordingly, pursuant to this Court's rulings in Slack and its

progeny,

a COA must be granted to Mr. Bates.

— The extent to which Mr. Screran found the Tidal Court's decisions wrong were best sunned
up ty his statanant in the attached affidavit he wrote: "I could probably go on for another 100
pages of docunmtatian of all the error, prejudice of the jujge qgainst [Mr. Bates], prosecutorial
misconduct and ineffective assistance of counsel [] in the instant case." (Screrdn Affidavit,
appendix e>hibit "A", affidavit page 11, 1131.) Moreover, such a claim ty Mr. Scrumn SHOULD
have warranted, at a nriniiTun, an evidentary hearirg into vhat more he could testify to in those
''TOO pages", and in fact, at least three (3) unopposed motions for this were made to the thgistxate, but were all denied prior to her cvan recusal for prejudice/conflict-of-interest (§455(a)
grounds). Again, the failure to grant a CCA or claim no reasonable jurist could find the Trial
Gourt's actions wrong cr debatable in li$it of this Garment alone is not just wrong, its mindboggling.

Al

Page

III. THE LOWER COURTS (DISTRICT AND APPELLATE) HAVE DECIDED A FEDERAL QUESTION
IN A WAY THAT DIRECTLY CONFLICTS WITH PREVIOUS APPLICABLE DECISIONS OF THIS
COURT.
The Supreme Court has repeatedly heldthat a movant must be granted a
COA when "a reasonable jurist" would either find the District Court's rulings
"wrong or debatable", or that said "reasonable jurist" would encourage further
review by the Court.
Tennard v. Dretke,

(See, inter alia, Slack v. McDaniel, 529 US 473 (2000);
542 US 274 (2000); Miller-El v. Cockrell, 537 US 322 (2003);

Barefoot v. Estelle, 463 US 880, n.4 (1983).)
The "reasonable jurist" standard?is the ONLY standard by which a COA
should be granted or denied.

The merits of potential of a successful appeal

or possible relief are irrelevant.
Engle, id at 936.)

(Miller-El, it at 338;

Slack, id at 484;

Moreover, if a judge uses any other standard to deny a

COA, he does so without jurisdiction.

(Buck v. Davis, 137 S.Ct 759 (2017).)

Irrespective of any other fact or claim by Mr. Bates, both the District Court
and Court of Appeals were presented with TWO sworn affidavits from a Florida
and Federal trial attorney who is still in practice, has forty years of
experience, and is well read on the case.

These affidavits irrefutably

demonstrate that a "reasonable jurist" found the District Court's rulings
"wrong or debatable" and worthy of appeal, meeting the Slack standard for a
COA. EVen the Government did not try to oppose or challenge this fact I
The Courts — both District and-Appellate — failed to even try to

? n

reconcile the proffered affidavits with thier rulings to deny a COA because
the Slack standard was not supposedly met. (All evidence to the contrary.)
The fact is that the Slack standard for a COA was met by the Petitioner

Page 'I'L

on all fours through the presentation of not one, but TWO sworn affidavits
from a reasonable jurist, neither of which were objected to or opposed by
the Government, nor did the Courts (appellate or district) opine that the
affidavits were wanting, improper, or that Mr. Scremin was in some way not
a reasonable jurist,

The affidavits were simply ignored, and the judges

and magistrates involved simply superimposed thier own views in thier rulings.
Moreover, if lever courts are alleged to sirrply quote one sentence frem Sleek, than arbi­
trarily state ;a "reasonable jurist" wouldn't find their opinions wrong^irrespec­
tive of contrary opinions of reasonable jurists, and thereby deny cases worthy
of a COA for self subserviant reasons, then Due Process is denied.
transcends the instant case:

This matter

It affects hundreds, perhaps thousands,~of

other simillarily situated litigants whose judges believe that thier opinions
exactly match every other "reasonable jurist", ot worse, they have the conciet
that any jurist that does not share thier opinion is not "reasonable".
Due to the potentially wide reach of this matter beyond just Mr. Bates'
case, the Supreme Court should grant certiorari to this case.

Page 2 3
REASONS FOR GRANTING OF THE WRIT.
I respectfully urge that all aspects of the Trial and Appellate Courts'
decisions were erroneous and at varience with the decisions of the Supreme
« Court's decisions as explained in the argument below:

ARGUMENT FOR ALLOWANCE OF A WRIT.
I.

BOTH THE COURT OF APPEALS AND TRIAL COURT ERRED IN FINDING NO REASONABLE
ATTORNEY OR JURIST COULD FIND THE TRIAL COURT'S RULINGS WRONG, DEBATABLE, OR
WORTHY OF FURTHER REVIEW.UNDER THE STANDARD OF REVIEW SET FORTH BY THE SUPREME
COURT IN SLACK V. MCDANIEL, id.
In the previous portions of this motion, much of what is germane had been
discussed at length.

But for procedural reasons and emphasis, we review the

issues.
The issues raised in the Section 2255 claim by the Petitioner had sur­
vived a Rule 4 review, were all well reasoned, factual, non-conclusory claims
that, if true, would emtitle the Petitioner to relief.

However, most, if not

all of the claims made in the Section 2255 were either not part of the record,
or so minimally so that the record could cast no real light.

The Petitioner's

Section 2255 claims ranged from procedural matters to, if true, issues that
constitute criminal witness tampering by deputies and members of the Govemment's trial team.

Some of these claims were not responded to by the Govern­

ment, and therfore should have automatically been granted relief,

Other

claims were only given minimal response by the Government.
Regardless, the undisputed claims made by the Respondent in his Section
2255 claim are, inter *li*5

Page

aw

1.

There were incidents that, if true, did, or potentially could have
affected the outcome of:'the case.

2.

The record is incomplete, as it contains no record of the facts
alleged, or so little therof that the record casts no real light.
Therefore, the record (Twst be enlarged through evidentary hearings
to fill in the "gaps" of the record in order for the Court to make
an intelligent ruling based on the record, and not simply "guess".

3.

At no time did the Government oppose or object to evidentary hearings
to complete the record,and in fact, the law requires the court to
hold such hearings to complete the record, which the Court refused
to do.6)

4.

Jurists (Mr. Scremin’s two affidavits) have opined under oath that
the rulings by the District Court were wrong and/or debatable and
warrant further review.

And at no time did the Government or the

Courts object to or invalidate the affidavits in question.
The Petitioner does redargue in this pleading the merits or potential
success of an appeal on this matter, as they are not relevant here.

The

Petitioner is only seeking his right to appeal under the law as defined
by the Supreme Court in Slack and its progeny,
asserts that the burden to obtain a COA is low:

Specifically, the Petitioner
To have a claim that the

court's ruling was, at minimum, debatable by a reasonable jurist.
id at 473;

(Slack,

Barefoot, id at 893, n.4.)

If for some reason the first affidavit by Mr. Scremin (Exhibit "A" of
the appendix) did not meet the Slack standard, in arguendo, then the second
0 See, inter alia, SEC v. Tcaxhia, No. 17-13651 @ 15-16, 22-23 (11th Or. Apr. 30, 2019);
WLllians v. Chatman, 510 F.3d 1290, 1295 (11th dr, 2007); Lynn v. US, 365 F.3d 1225, 1232 n.14
(11th Cir. 2004); 28 U9C 2255(b) (EkLdmtary hearing arc required unless "patently frivolous".);
Schiro v. Landrigm, 550 US 465, 473-75 (2007); Arm v. IB, 291 F.3d 708, 715-15, n.6 (11th Cir, 2002)

Page 2-T

affidavt (Exhibit "G" of the appendix) should have, as it was specifically
written by Mr. Scremin to meet the Slack standard for a COA.
In arguendo, if either court had found, or even suspected, Mr. Scremin
was not a "reasonable jurist", or that his affidavits were wanting in some
way, the the courts should have held an evidentary hearing or oral argument
to determine the issue

or at least, opined in thier rulings why they dis-

counted these affidavits.! But the lower courts did neither.

When faced with

an absolute and irrefutable demonstration that Mr. Bates met the Slack stan­
dard fcr a COA -- not once, but TWICE — instead of opining on it, they
ignored it.

Both the District and Appellate Courts put thier collective

heads in the sand and ruled as if the affidavts never existed.
selective,

This

picking-and-choosing" of what to consider and what to ignore

by judges/justices without any due process is the epitomy of "abuse of
discretion" by the courts.
The Petitioner clearly met the Slack burden for a COA, and one must be
granted to him.

£

Mr. Bates filed several motions in this §2255 that specifically or
indirectly sought to have the Court take notice of the affidavits from Mr.
Scremin and/or have evidentary hearings specifically to obtain additional
testimony from Mr. Scremin as well as "flesh out" his assertions through
hearings and testimony from others. The affidavits were not some small
document lost in the massive sea of records and pleadings in this case,
but rather Mr. Bates repeatedly put the Scremin affidavits — 25 and 22
pages long, respectively — front-and-center in multiple pleadings before
the Trial and Appellate Courts. There is no reason why the affidavits were
essentially ignored except by intentional, calculated, and willfilil refusal
to consider or even acknowledge the existance of the affidavits by the
Courts. In short, the Courts' failure to refer to them was not an oversight,
it was impermissable abuse of discretion by ignoring relevent testimentary
evidence.

Page

II.

2.lo

THE QUESTIONS RAISED IN THIS PETITION ARE IMPORTANT AND UNRESOLVED.
The Eleventh Circuit has decided a important question of federal law which
has not been, but should be, settled by the Supreme Court, and has a firm
basis for granting certiorari in this case:
1.

The Eleventh Circuit erred by ignoring affidavits by "reasonable

jurists" in deciding if a COA is warranted in this case.
2.

The Eleventh Circuit's denial of a COA, without proper explanation

or grounds, in light of multiple affidavits by a reasonable jurist stating
that the District Court's rulings were debatable or wrong, and an appeal
was warranted, runs in direct contravention to numerous decisions by the
Supreme Court (e.g.: Slack, id.; Miller-El, id.), setting a new, but
wrong and dangerous precedent in the Eleventh Circuit contrary to the
holdings in the Supreme Court, as well as every other circuit in the
nation.

This can, if left unchecked, adversly affect hundreds or thousands

of like cases in the Eleventh Circuit.

3.

The Courts -- Trial and Appellate — denied a Certificate of Appeal-

ability to Mr. Bates for reasons beyond the standard set by Slack and its
progeny:

The reasonable jurist standard of finding the ruling(s) wrong or

debatable, or worthy of further?: review, regardless of the merits of the case
or its potential for successful appeal.

Pursuant to the Supreme Court's hold­

ing in Buck v. Davis, id., whatever reasons or grounds the Courts used to deny
Mr. Bates a COA were clearly outside of the four-corners of the Slack standard,
and, therefore, they ruled and acted "without jurisdiction".

Page 2 ~7

CONCLUSION.
This matter is shockingly simple:

Did a reasonable jurist find the

District Court s rulings "wrong or debatable", thereby requiring a COA to
be issued pursuant to Slack?

The two affidavits by attorney Anthony Scremin

submitted to the courts (both District and Appellate) answer that question
in the afirmative.

And a COA's fJiuance to the Petitioner should have been

"no-brainer".
....... And Yet> the Petitioner appears before this Supreme Court

with

hat in one hand and a pair of affidavits from a reasonable jurist in the other.
The Petitioner did everything correct — and he's a Pro Se litigant,
the law.

He followed

He demonstrated that a reasonable jurist agreed with him that the

district court's rulings were wrong or debatable.

Even the Government did not

object or respond to the affidavits or motions asking that the Court take notice
of them.

So why was the COA not granted?

overburdened docket?
this case?

Was the Court trying to reduce its

After two trials, was the Court trying to "get rid" of

More ominously, many jurists reviewing the current status of the

case arrived ataa chilling conclusion:

If the Petitioner did get relief in

the form of a new trial, he'd now have access to SIX (6) new exculpatory
witnesses unavailable to him at the first trials, the government's key
witness (Det. Valenfcien) is dead, and there is now evidence of witness
tampering by the Government that was not available at the time of trial.
As to the defense side, all of the defenses' key witnesses are either dead
or alienated to the Petitioner,

All of the proof of his alibis — the bank

records — are no longer available as they are destroyed after
And double (triple?) jeopardy may now be in play.

seven years.

Simply, is the Court —

Judge Moore in particular who found the Petitioner to be "dispicable" and a

Page r? %
"liar"

now facing the inconvenient truth that if given a new trial, the

Petitioner.may be acquitted automatically due to spoilage and/or prosecutor­
ial misconduct, or simply win a new trial due to the overwhelming exculpatory
evidence now available to him?~
Whatever the

reason, the lower Courts were wrong.

show the Petitioner met-the Slack standard for a COA.

The affidavits clearly
And the Courts ignoring

them is a complete miscarriage of justice that must not stand.
Accordingly, the Petitioner prays that this Court will grant certiorari ’
in this case.

Dated

Signed,
Cameron Dean Bates
'
Petitioner, Pro Se
Registration # 00407-104
C/0 Federal Correctional Complex-LOW
PO Box 1031
Coleman, Florida 33521

^ As Mr. Scremin detailed in his affidavits, and can be inferred ty He the opinion of the
Eleventh Circuit Gcurt of Appeals in thier vacating and renandirg of Mr. Bates' conviction in
2014, the anirrDsity shewn towards Mr. Bates ty the THal Gourt judge — K. Michael Moore — in
both trials aid pretrial hearings was plainly obvious. A motion to seek recusal of Jir^e Moore
in the first trial also further detailed this animosity. He allowed, over objections, the
Government to repeatedly refer to life Bates (falsely) as a "big fish" and 'test of worst" despite
Moore having tried dozens — if not hundreds — of defendants with significantly greater child pom
offenses, hit as far as the Defense could find, not a single defendant with less. Evan He 11th
Circuit pointed cut Hat the Government's actions were clearly intended to hETthe jury and act
improperly. A fact obvicus to ary jurist, and yet allowed ty Moore. For one to suppose Hat
Judge More intentionally denied Mr. Bates relief improperly, then "covered his tracks" ty deyirg
a CCA in violation of Slack may be distastful or one the higher courts may want to avoid considering,
tut consider it they must. Althxgjn he is a judge, he is also a human and subject to faults. (And
a judge with a bi^n rate of reversals, as well as one of the lowest reviews ty He judicial wetsite
The Robing Room (therobirgrocm. com) which also repeatedly cited his allowing his personal feelings
to become obvious towards defendants and lawyers. (As reported in 2011.)

